         U.S. Department of Energy
         Office of Inspector General
         Office of Inspections




Inspection Report
Inspection of Savannah River
Operations Office Management
of Emergency Response and Law
Enforcement-Related Grants



DOE/IG-0604                            June 2003
INSPECTION OF SAVANNAH RIVER OPERATIONS OFFICE
MANAGEMENT OF EMERGENCY RESPONSE AND LAW
ENFORCEMENT-RELATED GRANTS




TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective             1

              Observations and Conclusions           1


              DETAILS OF FINDINGS

              Receipt of Grant Deliverables          3

              Follow-up on Delinquent Deliverables   4


              RECOMMENDATIONS                        4


              MANAGEMENT COMMENTS                    5


              INSPECTOR COMMENTS                     5


              APPENDICES

              A. Scope and Methodology               6

              B. Management Comments                 7
Overview

INTRODUCTION       The Office of Inspector General (OIG) conducted an inspection
AND OBJECTIVE      of select grants funded by the Department of Energy (DOE)
                   Savannah River Operations Office (SRO). Specifically, the
                   purpose of this inspection was to review the oversight and
                   management of grant monies awarded by SRO for emergency
                   response and law enforcement-related activities.

                   SRO has five such grants. The State of Georgia received two
                   grants, and the State of South Carolina received three grants.
                   Financial obligations for the five grants for Fiscal Years (FYs)
                   2001 and 2002 were approximately $2,682,534 and $3,004,728,
                   respectively. The Georgia agencies responsible for managing the
                   grants are the Emergency Management Agency and the
                   Department of Natural Resources. The South Carolina agencies
                   responsible for managing the grants are the Department of Health
                   and Environmental Control and the Emergency Management
                   Division.

                   SRO officials are responsible for ensuring that grantee activities
                   are in accordance with the grant terms and for verifying the proper
                   expenditure of grant funds. We reviewed the five grants to
                   determine whether SRO is adequately managing these grants, to
                   include ensuring that the grant recipients are on schedule and
                   meeting milestones.

OBSERVATIONS AND   We concluded that SRO was not adequately managing the grants to
CONCLUSIONS        Georgia and South Carolina and did not have documentation to
                   support whether or not the grant recipients were on schedule and
                   meeting milestones. Specifically, we found that SRO was not
                   receiving many of the deliverables specified in the grants and was
                   not following up on the delinquent deliverables as required.
                   Furthermore, we determined that SRO did not have a formal system
                   for tracking grant deliverables. The deliverables consist of progress
                   and financial reports that provide performance and financial data for
                   use by SRO officials to assess whether grantee performance is
                   meeting established objectives and taxpayer funds are being
                   appropriately used.

                   Over the last several years, the OIG has conducted a number of
                   reviews of Department grants where problems have been
                   identified. For example, a September 2001 OIG Office of Audit
                   Services report entitled “Albuquerque Operations Office’s Grant




Page 1                              Inspection of Savannah River Operations
                                    Office Management of Emergency Response
                                    and Law Enforcement-Related Grants
         Administration,” report number DOE/IG-0524, had similar
         findings regarding the Department’s management of certain grants.

         During our inspection fieldwork, we also noted that SRO’s
         Assistant Manager for Health, Safety, and Technical Support had
         performed a broad internal assessment pertaining to all SRO grants
         and had prepared a May 2002 report entitled “Assessment of DOE-
         SR’s Grant Administration.” The report identified concerns with
         respect to grant deliverables, as well as with cost sharing and cost
         sharing validation.




Page 2                                    Observations and Conclusions
Details of Findings

RECEIPT OF GRANT      Our inspection found that a number of deliverables required under
DELIVERABLES          the five grants had not been received in a timely manner by SRO
                      officials. Specifically, SRO officials had received only 45 of the
                      81 required deliverables (56 percent) for the period October 2000
                      through April 2002.

                      For example, SRO had not received a number of required financial
                      reports from Georgia. During visits to the grantee offices, the OIG
                      obtained copies of some financial reports. The following are
                      examples of expenditures by the Georgia Department of Natural
                      Resources that had not been submitted to SRO for review:

                      •   Approximately $12,800 of purchases made during March 2002
                          using a procurement card.

                      •   The purchase of two new pick-up trucks valued at $49,600.
                          SRO officials advised us that they were aware from the
                          Georgia Department of Natural Resources budget that the
                          purchase was planned, although at a cost of $40,000. We noted
                          that SRO paid for the purchase of two trucks despite the
                          grantee only utilizing two employees on a part-time basis to
                          work on SRO activities.

                      •   Real estate rental charges for FY 2002 of $60,164. The State’s
                          program manager told the OIG that the amount for FY 2003
                          would be reduced to $16,800 because DOE should only have
                          been charged a prorated share of the lease cost.

                      In our view, review of the incurred costs associated with the five
                      grants is key to ensuring the appropriateness and allowability of
                      expenditures being paid by the Department. It is unclear to us that
                      the above examples of expenditures are appropriate and allowable.

                      In another example, the South Carolina Emergency Management
                      Division (SC-EMD) had not obtained required deliverables from
                      subcontractors. SC-EMD contracted with the South Carolina
                      counties of Aiken, Allendale, and Barnwell for work associated
                      with the grant. SC-EMD contractually required that the counties
                      provide quarterly progress reports summarizing the results of
                      accomplishments relative to emergency preparedness and response
                      activities. However, we found that SC-EMD was not ensuring that
                      the counties submitted the reports.




Page 3                                                               Details of Findings
FOLLOW-UP ON      We also found that SRO officials did not take required follow-up
DELINQUENT        actions regarding delinquent deliverables. DOE Financial
DELIVERABLES      Assistance Letter No. 2001-04, “Management of Report
                  Deliverables,” states: “When a report has not been received by the
                  terms of the award, the Contracting Officer should contact the
                  recipient by telephone or electronic mail to advise of the
                  delinquency.” The Letter further states: “If a report is overdue by
                  30 days, the Contracting Officer must send a letter to the recipient
                  notifying it of the delinquency and requesting the report. This
                  letter may be sent electronically. The letter must state that, if the
                  report cannot be submitted promptly, the recipient should explain
                  the reason and state the date by which DOE will receive the
                  report.”

                  SRO had not taken written follow-up action, as described above,
                  on any of the grants we reviewed. However, on one grant, SRO
                  program officials sent the Georgia Department of Natural
                  Resources a series of electronic mail messages regarding overdue
                  reports, and the Contracting Officer was copied on two of the
                  messages. We noted that after OIG inspectors visited the two
                  Georgia agencies, SRO received 14 of the delinquent financial
                  report deliverables for FYs 2001 and 2002.

                  We determined that SRO did not have a formal system in place to
                  track the status of required deliverables, to include having
                  procedures for notifying a grantee when a deliverable was not
                  received in a timely manner. Follow-up actions were sporadic and
                  inconsistent with grant requirements. Two SRO contracting
                  officials stated that these grants were to be used merely as financial
                  assistance instruments; therefore, they felt that the grants could not
                  be held to the same standard as contracts.

RECOMMENDATIONS   Grant deliverables represent the level of performance by the grant
                  recipients, and the Department has an obligation to the taxpayer to
                  ensure that the grantees are performing as intended. Therefore, we
                  recommend that the Manager, Savannah River Operations Office:

                  1. Follow up and ensure receipt of all currently delinquent
                     deliverables and ensure all incurred costs associated with the
                     grants are reviewed for appropriateness and allowability.

                  2. Specifically, ensure the Department receives reimbursement
                     for any real estate rental charges for FY 2002 by the Georgia
                     Department of Natural Resources that were in excess of the
                     Department’s prorated share of lease costs.



Page 4                                                            Recommendations
             3. Develop and implement a system for tracking deliverables and
                following up on delinquent deliverables in a timely manner, to
                include establishing a course of action when delinquencies
                remain unresolved.

MANAGEMENT   On March 11, 2003, the Assistant Secretary for Environmental
COMMENTS     Management provided written comments on our draft inspection
             report. The Assistant Secretary’s verbatim response and
             Attachment 1 to her response are included as Appendix B to this
             report. Management concurred with the report recommendations
             and identified corrective actions taken or planned. Attachment 2 to
             the Assistant Secretary’s response contained specific comments
             regarding the facts presented in the report. These comments have
             been addressed as discussed below.

INSPECTOR    We consider management’s comments and actions regarding the
COMMENTS     findings and recommendations contained in our report to be
             generally responsive. With respect to recommendation 2,
             however, management commented that: “The referenced real
             estate charges were appropriately reimbursed to DOE. Details are
             documented in the GDNR October – December 2002 Quarterly
             Cost Report submitted to DOE SR on January 13, 2003.” We
             reviewed the cited Quarterly Cost Report, which indicates that the
             reimbursement amount was $13,429 based on the third quarter.
             We noted that the cited report lacks detail as to how the
             reimbursement amount was derived, but it gives the impression
             that only third quarter costs were reviewed. Therefore, we believe
             SRO management should evaluate the methodology the grantee
             used to arrive at the reimbursement amount to ensure that all real
             estate charges for FY 2002 have been appropriately reviewed.

             Management made additional comments regarding the content of
             the draft report. These comments were taken into consideration
             and changes were made where appropriate to the final report.
             Based upon management’s comments, recommendation 4 in the
             draft report has not been included in this final report.




Page 5                              Management and Inspector Comments
Appendix A

SCOPE AND     This inspection was conducted in accordance with the “Quality
METHODOLOGY   Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency. We reviewed grant-related activities of
              the Savannah River Operations Office in Aiken, South Carolina.
              We reviewed the applicable laws, policies, procedures, and
              guidelines relevant to grants issued to the States of South Carolina
              and Georgia for emergency response and law enforcement-related
              activities. Additionally, the inspection included reviews of
              memoranda of understanding/agreement with State and/or local
              agencies, as appropriate. The inspection included visits to the
              emergency management offices of South Carolina and Georgia and
              interviews of State officials and Savannah River Site Federal and
              contractor personnel. Required deliverables were compared
              against received deliverables. Fieldwork was conducted primarily
              from May through September 2002.




Page 6                                                Scope and Methodology
Appendix B




Page 7       Management Comments
                        U.S. Department of Energy (DOE)
                     Savannah River Operations Office (SR)
      Response to Office of Inspector General (OIG) Recommendations from
  Draft Report, “Inspection of Savannah River Operations Office Management of
   Emergency Response and Law Enforcement Related Grants” (January 2003)

Discussed below are the OIG report recommendations and the DOE SR response,
including identification of corrective actions taken or planned:

Recommendation 1: Follow up and ensure receipt of all currently delinquent
deliverables, and ensure all incurred costs associated with the grants are reviewed for
appropriateness and allowability.

Response: Concur. By February 7, 2003, the DOE SR Contracts Management Division
(CMD) will request, in writing, overdue deliverables from October 1, 2000, to the present
from the appropriate grantees. Upon receipt, SRO program managers will review the
costs for appropriateness and consistency with approved budget requests.

Recommendation 2: Specifically, ensure the Department receives reimbursement for
any real estate rental charges for FY 2002 by the Georgia Department of Natural
Resources that were in excess of the Department’s prorated share of lease costs.

Response: Concur. The referenced real estate charges were appropriately reimbursed to
DOE. Details are documented in the GDNR October – December 2002 Quarterly Cost
Report submitted to DOE SR on January 13, 2003.

Recommendation 3: Develop and implement a system for tracking deliverables and
following up on delinquent deliverables in a timely manner, to include establishing a
course of action when delinquencies remain unresolved.

Response: Concur. The DOE SR CMD has obtained an automated grant tracking system
developed by the Idaho Operations Office, which will provide efficient tracking of all
grant deliverables. The system, which provides for follow-up actions including penalties
up to grantee debarment for failure to provide required deliverables, will allow CMD to
ensure prompt, formal notification of delinquencies to grantees. The system is
anticipated to be operational in March 2003.

Recommendation 4: Ensure all grants established pursuant to the Agreements in
Principle guidance issued by the Office of Environmental Management require the
submission of deliverables consistent with the guidance, including quarterly reports.

Response: Concur. DOE SR has reviewed the two grants established pursuant to the
Agreements in Principle program (DE-FG09-92SR18265 and DE-FG09-93SR18289) and
found they contain the mandatory elements to fully comply with program requirements
and guidance.



Page 8                                                         Management Comments
                                                                    IG Report No. DOE/IG-0604

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
